               Department of Veterans Affairs
               Office of Inspector General


                    Office of Healthcare Inspections

Report No. 14-02069-268




    Combined Assessment Program 

             Review of the 

   John D. Dingell VA Medical Center 

           Detroit, Michigan 





September 4, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       John D. Dingell VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MRI            magnetic resonance imaging
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 QM             quality management
                 SDS            same day surgery
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                CAP Review of the John D. Dingell VA Medical Center, Detroit, MI



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Medication Management......................................................................................... 8

  Coordination of Care ............................................................................................... 9

  Acute Ischemic Stroke Care ................................................................................... 10

  CLC Resident Independence and Dignity ............................................................... 12

  MRI Safety .............................................................................................................. 14


Appendixes
  A. Facility Profile ....................................................................................................      16

  B. Strategic Analytics for Improvement and Learning ............................................                              17

  C. VISN Director Comments ..................................................................................                  20

  D. Facility Director Comments ...............................................................................                 21

  E. OIG Contact and Staff Acknowledgments .........................................................                            30

  F. Report Distribution .............................................................................................          31

  G. Endnotes ...........................................................................................................       32





VA OIG Office of Healthcare Inspections
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
July 14, 2014.

Review Results:          The review covered seven activities.                      We made no
recommendations in the following activity:

 Coordination of Care

Recommendations: We made recommendations in the following six activities:
Quality Management: Ensure the Blood Usage Review Committee member from
Anesthesia Service consistently attends meetings.

Environment of Care: Secure medication carts at all times. Maintain auditory privacy in
all intake areas, and stress to staff that sensitive patient information should not be
discussed in public areas. Ensure all designed eye clinic employees receive eye laser
safety training with the frequency required by local policy.

Medication Management:           Document patient/caregiver understanding of discharge
instructions.

Acute Ischemic Stroke Care: Complete and document National Institutes of Health
stroke scales for each stroke patient. Screen patients for swallowing difficulties prior to
oral intake. Provide printed stroke education to patients upon discharge. Ensure staff
involved in assessing and treating stroke patients receive the training required by the
facility.

Community Living Center Resident Independence and Dignity:              Complete and
document restorative nursing services according to clinician orders and/or residents’
care plans. Modify restorative nursing interventions as needed, and document the
modifications. Document the reasons for not providing restorative nursing services
when those services are care planned. Ensure hand-off communication occurs
between Physical Medicine and Rehabilitation Service and the community living center
when residents are discharged from therapy. Require that staff who perform restorative
nursing services receive training on range of motion and resident transfers. Document
residents’ restorative progress weekly.

Magnetic Resonance Imaging Safety: Conduct initial patient safety screenings. Ensure
radiologists and/or Level 2 magnetic resonance imaging personnel document resolution
of all contraindications prior to the scan. Require that all designated Level 1 ancillary
staff and Level 2 magnetic resonance imaging personnel receive annual level-specific




VA OIG Office of Healthcare Inspections                                                             i
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


magnetic resonance imaging safety training. Regularly test two-way communication
devices.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, page 20–29, for the full text
of the Directors comments.) We will follow up on the planned actions until they are
completed.




                                                            JOHN D. DAIGH, JR., M.D. 

                                                           Assistant Inspector General for 

                                                              Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                             ii
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Acute Ischemic Stroke Care

   	 CLC Resident Independence and Dignity

   	 MRI Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FYs 2011–2013 and FY 2014 through
July 14, 2014, and was done in accordance with OIG standard operating procedures for
CAP reviews. We also asked the facility to provide the status on the recommendations


VA OIG Office of Healthcare Inspections                                                             1
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


we made in our previous CAP report (Combined Assessment Program Review of the
John D. Dingell VA Medical Center, Detroit, Michigan, Report No. 12-02600-28,
November 8, 2012).

During this review, we presented crime awareness briefings for 144 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
305 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.




VA OIG Office of Healthcare Inspections                                                             2
                                             CAP Review of the John D. Dingell VA Medical Center, Detroit, MI



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The area marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
       Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                    3
                                              CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


NM               Areas Reviewed (continued)                                   Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        Surgical deaths with identified problems or
          opportunities for improvement were
          reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                     4
                                             CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


NM              Areas Reviewed (continued)                                   Findings
 X     The process to review blood/transfusions          Eight months of Blood Usage Review
       usage met selected requirements:                  Committee meeting minutes reviewed:
        A committee with appropriate clinical            The clinical representative from Anesthesia
          membership met at least quarterly to review       Service attended only two of eight meetings.
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendation

1. We recommended that processes be strengthened to ensure that the Blood Usage Review
Committee member from Anesthesia Service consistently attends meetings.




VA OIG Office of Healthcare Inspections                                                                    5
                                            CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

We inspected the emergency department, the CLC, the intensive care unit, the inpatient MH
unit, the medical unit, the surgical unit, SDS, the PACU, and the eye clinic. Additionally, we
reviewed relevant documents, conversed with key employees and managers, and reviewed
31 employee training records (16 SDS, 10 PACU, and 5 eye clinic).   The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                                Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.               
       Environmental safety requirements were met.
       Infection prevention requirements were met.
 X     Medication safety and security requirements      There were unlocked medication carts in
       were met.                                         three of six patient care areas.
 X     Auditory privacy requirements were met.          The intake area in one of six patient care
                                                         areas did not have sufficient auditory privacy,
                                                         and sensitive patient information was
                                                         discussed in a facility public area.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
          Areas Reviewed for SDS and the PACU
       Designated SDS and PACU employees
       received bloodborne pathogens training
       during the past 12 months.
       Designated SDS employees received medical
       laser safety training with the frequency
       required by local policy.
       Fire safety requirements in SDS and on the
       PACU were met.




VA OIG Office of Healthcare Inspections                                                                    6
                                           CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


NM        Areas Reviewed for SDS and the PACU                              Findings
                          (continued)
       Environmental safety requirements in SDS
       and on the PACU were met.
       SDS medical laser safety requirements were
       met.
       Infection prevention requirements in SDS and
       on the PACU were met.
       Medication safety and security requirements
       in SDS and on the PACU were met.
       Auditory privacy requirements in SDS and on
       the PACU were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Eye Clinic
 X     Designated eye clinic employees received        Two of the five eye clinic employees did not
       laser safety training with the frequency         receive laser safety training with the
       required by local policy.                        frequency required by local policy.
       Environmental safety requirements in the eye
       clinic were met.
       Infection prevention requirements in the eye
       clinic were met.
       Medication safety and security requirements
       in the eye clinic were met.
       Laser safety requirements in the eye clinic
       were met.
       The facility complied with any additional       
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

2. We recommended that processes be strengthened to ensure that medication carts are
secured at all times and that compliance be monitored.

3. We recommended that processes be strengthened to ensure that auditory privacy is
maintained in all intake areas, that managers stress to staff that sensitive patient information
should not be discussed in public areas, and that compliance be monitored.

4. We recommended that processes be strengthened to ensure that all designated eye clinic
employees receive eye laser safety training with the frequency required by local policy and that
compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  7
                                              CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 33 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
 X     Providers completed discharge progress             Eight EHRs (24 percent) did not reflect that
       notes or discharge instructions, written            patients/caregivers understood discharge
       instructions were provided to                       instructions.
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

5. We recommended that processes be strengthened to ensure that clinicians document
patient/caregiver understanding of discharge instructions and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                     8
                                              CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 29 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

 NM                   Areas Reviewed                                         Findings
        Patients’ post-discharge needs were
        identified, and discharge planning addressed
        the identified needs.
        Clinicians provided discharge instructions to
        patients and/or caregivers and validated their
        understanding.
        Patients received the ordered aftercare
        services and/or items within the
        ordered/expected timeframe.
        Patients’ and/or caregivers’ knowledge and
        learning abilities were assessed during the
        inpatient stay.
        The facility complied with any additional
        elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     9
                                                CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


Acute Ischemic Stroke Care
The purpose of this review was to determine whether the facility complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke.e

We reviewed relevant documents, the EHRs of 31 randomly selected patients who experienced
stroke symptoms, and 15 staff training records (5 emergency department, 5 intensive care unit,
and 5 medical and step-down unit), and we conversed with key employees. We also conducted
onsite inspections of the emergency department/urgent care unit, one critical care unit, and two
acute inpatient units. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                          Findings
       The facility’s stroke policy/plan/guideline
       addressed all required items.
 X     Clinicians completed the National Institutes of      Twenty-five EHRs (81 percent) did not contain
       Health stroke scale for each patient within the       documented evidence of completed stroke
       expected timeframe.                                   scales.
       Clinicians provided tissue plasminogen
       activator timely to halt the stroke and included
       all required steps, and tissue plasminogen
       activator was in stock or available within
       15 minutes.
       Stroke guidelines were posted in all areas
       where patients may present with stroke
       symptoms.
 X     Clinicians screened patients for difficulty          Fifteen EHRs (48 percent) did not contain
       swallowing prior to oral intake of food or            documentation that patients were screened
       medicine.                                             for difficulty swallowing prior to oral intake.
 X     Clinicians provided printed stroke education to      Fourteen EHRs (45 percent) did not contain
       patients upon discharge.                              documentation that stroke education was
                                                             provided to the patient/caregiver.
 X     The facility provided training to staff involved     Two employees had not completed the
       in assessing and treating stroke patients.            web-based training required by the facility.
       The facility collected and reported required
       data related to stroke care.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

6. We recommended that processes be strengthened to ensure that clinicians complete and
document National Institutes of Health stroke scales for each stroke patient and that compliance
be monitored.

7. We recommended that processes be strengthened to ensure that clinicians screen patients
for difficulty swallowing prior to oral intake.



VA OIG Office of Healthcare Inspections                                                                        10
                                          CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


8. We recommended that processes be strengthened to ensure that clinicians provide printed
stroke education to patients upon discharge and that compliance be monitored.
9. We recommended that processes be strengthened to ensure that employees who are
involved in assessing and treating stroke patients receive the training required by the facility and
that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                11
                                             CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


CLC Resident Independence and Dignity
The purpose of this review was to determine whether the facility provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.f

We reviewed 14 EHRs of residents (10 residents receiving restorative nursing services and
4 residents not receiving restorative nursing services but candidates for services). We also
observed 2 meal periods, reviewed 10 employee training/competency records and other
relevant documents, and conversed with key employees. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
       The facility offered restorative nursing
       services.
 X     Facility staff completed and documented           None of the 10 applicable EHRs contained
       restorative nursing services, including active     documentation that facility staff completed
       and passive range of motion, bed mobility,         restorative nursing services according to
       transfer, and walking activities, according to     clinician orders and/or residents’ care plans.
       clinician orders and residents’ care plans.
 X     Resident progress towards restorative nursing     Neither of the two applicable EHRs contained
       goals was documented, and interventions            evidence that facility staff documented that
       were modified as needed to promote the             interventions were modified to promote the
       resident’s accomplishment of goals.                residents’ accomplishment of goals.
 X     When restorative nursing services were care       None of the 10 applicable EHRs where
       planned but were not provided or were              restorative nursing services were care
       discontinued, reasons were documented in           planned but were not provided reflected the
       the EHR.                                           reasons.
 X     If residents were discharged from physical        Neither of the two EHRs of residents who
       therapy, occupational therapy, or                  were discharged from one of the therapies
       kinesiotherapy, there was hand-off                 reflected hand-off communication.
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
 X     Training and competency assessment were           Two employee training records did not
       completed for staff who performed restorative       contain evidence of completed training for
       nursing services.                                   range of motion and resident transfers.
 X     The facility complied with any additional        Local policy on restorative care program for CLC
       elements required by VHA or local policy.        residents reviewed:
                                                         Although local policy required weekly
                                                           documentation of residents’ restorative
                                                           progress, 4 of the 10 applicable EHRs lacked
                                                           these weekly notes.




VA OIG Office of Healthcare Inspections                                                                    12
                                            CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


NM         Areas Reviewed for Assistive Eating                               Findings
                Devices and Dining Service
 NA    Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

10. We recommended that processes be strengthened to ensure that staff complete and
document restorative nursing services according to clinician orders and/or residents’ care plans
and that compliance be monitored.

11. We recommended that processes be strengthened to ensure that staff modify restorative
nursing interventions as needed and document the modifications and that compliance be
monitored.

12. We recommended that processes be strengthened to ensure that staff document the
reasons for not providing restorative nursing services when those services are care planned and
that compliance be monitored.

13. We recommended that processes be strengthened to ensure that hand-off communication
occurs between Physical Medicine and Rehabilitation Service and the community living center
when residents are discharged from therapy to ensure that restorative nursing services occur.

14. We recommended that processes be strengthened to ensure that employees who perform
restorative nursing services receive training on range of motion and resident transfers.

15. We recommended that processes be strengthened to ensure that staff document residents’
restorative progress weekly and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  13
                                             CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


MRI Safety
The purpose of this review was to determine whether the facility ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.g

We reviewed relevant documents and the training records of 39 employees (27 randomly
selected Level 1 ancillary staff and 12 designated Level 2 MRI personnel), and we conversed
with key managers and employees. We also reviewed the EHRs of 34 randomly selected
patients who had an MRI January 1–December 31, 2013. Additionally, we conducted physical
inspections of two MRI areas. The table below shows the areas reviewed for this topic. The
areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                       Findings
       The facility completed an MRI risk
       assessment, there were documented
       procedures for handling emergencies in MRI,
       and emergency drills were conducted in the
       MRI area.
 X     Two patient safety screenings were conducted  Twenty-two EHRs (65 percent) did not contain
       prior to MRI, and the secondary patient safety   initial patient safety screenings.
       screening form was signed by the patient,
       family member or caregiver and reviewed and
       signed by a Level 2 MRI personnel.
 X     Any MRI contraindications were noted on the     Eighteen of the 21 applicable EHRs did not
       secondary patient safety screening form, and     contain documentation that all identified
       a Level 2 MRI personnel and/or radiologist       contraindications were addressed prior to
       addressed the contraindications and              MRI.
       documented resolution prior to MRI.
 X     Level 1 ancillary staff and Level 2 MRI         None of the Level 1 ancillary staff received
       personnel were designated and received           level-specific annual MRI safety training.
       level-specific annual MRI safety training.      Five Level 2 MRI personnel did not receive
                                                        level-specific annual MRI safety training.
       Signage and barriers were in place to prevent
       unauthorized or accidental access to Zones III
       and IV.
 X     MRI technologists maintained visual contact     In one of two MRI suites, facility staff did not
       with patients in the magnet room and two-way     regularly test the two-way communication
       communication with patients inside the           device.
       magnet, and the two-way communication
       device was regularly tested.
       Patients were offered MRI-safe hearing
       protection for use during the scan.
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.




VA OIG Office of Healthcare Inspections                                                                   14
                                             CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


NM             Areas Reviewed (continued)                                    Findings
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

16. We recommended that processes be strengthened to ensure that initial patient safety
screenings are conducted and that compliance be monitored.

17. We recommended that processes be strengthened to ensure that radiologists and/or
Level 2 magnetic resonance imaging personnel document resolution in patients’ electronic
health records of all identified magnetic resonance imaging contraindications prior to the scan
and that compliance be monitored.

18. We recommended that processes be strengthened to ensure that all designated
Level 1 ancillary staff and Level 2 magnetic resonance imaging personnel receive annual
level-specific magnetic resonance imaging safety training and that compliance be monitored.

19. We recommended that processes be strengthened to ensure that two-way communication
devices are regularly tested and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   15
                                             CAP Review of the John D. Dingell VA Medical Center, Detroit, MI
                                                                                               Appendix A


       Facility Profile (Detroit/553) FY 2014 through June 20141
Type of Organization                                                                Secondary
Complexity Level                                                                    1b-High complexity
Affiliated/Non-Affiliated                                                           Affiliated
Total Medical Care Budget in Millions                                               $315.2
Number (as of July 2014) of:
    Unique Patients                                                                44,454
    Outpatient Visits                                                              399,765
    Unique Employees2                                                              1,530
Type and Number of Operating Beds:
    Hospital                                                                       100
    CLC                                                                            109
    MH                                                                             50
Average Daily Census:
    Hospital                                                                       60
    CLC                                                                            69
    MH                                                                             35
Number of Community Based Outpatient Clinics                                        2
Location(s)/Station Number(s)                                                       Yale/553GA
                                                                                    Pontiac/553GB
VISN Number                                                                         11




1
    All data is for FY 2014 through June 2014 except where noted.
2
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                                   16
                                                                    CAP Review of the John D. Dingell VA Medical Center, Detroit, MI
                                                                                                                      Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                          17
                                                            CAP Review of the John D. Dingell VA Medical Center, Detroit, MI



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                  18
                                                                                                         CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


                                                                         Metric Definitions
 Measure                       Definition                                                                                    Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)             A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                       A lower value is better than a higher value
 Best Place to Work            Overall satisfaction with job                                                                 A higher value is better than a lower value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                                    A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                          A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                                   A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)                A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                                 A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                             A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                        A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                          A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics; FY13 and later)                A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                          A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)             A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics; FY13 and later)      A higher value is better than a lower value
 PSI                           Patient safety indicator (observed to expected ratio)                                         A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                              A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                                A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                       A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                          A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                         A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction                     A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                        A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                       A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                           A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                                A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics; FY13 and later)    A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                                    19
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI
                                                                                        Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:       August 20, 2014

          From:        Director, Veterans In Partnership (10N11)

       Subject: 	      CAP Review of the John D. Dingell VA Medical Center,
                       Detroit, MI

             To:       Director, Chicago Office of Healthcare Inspections (54CH)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. Per your request, attached is the response to the draft CAP report for
          the John D. Dingell VA Medical Center. I have reviewed the comments
          and concur with the responses and actions to the recommendations in
          the report.

       2. If you have any questions, please contact Carol Jones, Chief Quality,
          Safety and Values Officer, Veterans In Partnership, VISN 11 at
          734-222-4302.




           Paul Bockelman, FACHE




VA OIG Office of Healthcare Inspections                                                            20
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI
                                                                                        Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:       August 20, 2014

          From:        Director, John D. Dingell VA Medical Center (553/00)

       Subject:        CAP Review of the John D. Dingell VA Medical Center,
                       Detroit, MI

             To:       Director, Veterans In Partnership (10N11)

       1. Thank you for the opportunity to review the draft Office of Inspector
          General’s report on the John D. Dingell VA Medical Center CAP
          Review. I have reviewed each recommendation and concur with the
          findings.

       2. If you have any questions or wish to discuss this report, please contact
          me at (313) 576-1212.




           Pamela J. Reeves, MD,




VA OIG Office of Healthcare Inspections                                                            21
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
the Blood Usage Review Committee member from Anesthesia Service consistently
attends meetings.

Concur

Target date for completion: June 20, 2015

Facility response: Anesthesia Service has assigned two staff members, a primary and
alternate member, to the Blood Usage Review Committee. The Chair of the Committee
will contact both Anesthesia Service members by email prior to the scheduled meetings
which are held every other month. If the Anesthesia Service members do not respond,
the committee chair will contact the members by phone and escalate the email
notification simultaneously to the Chief of Anesthesia, Chief of Surgery and Chief of
Staff. Six months of meetings will be monitored from 8-15-14 to 6-20-15. Each meeting
will have minutes with an attached attendance sheet. Minutes are reviewed quarterly in
the Quality Leadership Committee.

Recommendation 2. We recommended that processes be strengthened to ensure that
medication carts are secured at all times and that compliance be monitored.

Concur

Target date for completion: February 2, 2015

Facility response: The medication cart on the locked Psychiatric Unit required a battery
which was replaced on 7-18-14 and all drawers are now able to lock. The medication
cart on the acute surgical floor was repaired by replacing a latch on 8-12-14. The
medication cart drawers in the Community Living Center (CLC) were left open by the
nurse and the CNM has reviewed medication safety with the staff. The CNMs will
randomly check the medication carts four times a month for six months for a target of
100% and report to the Nursing Performance Improvement (PI) committee and Quality
and Performance (QP).




VA OIG Office of Healthcare Inspections                                                            22
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


Recommendation 3. We recommended that processes be strengthened to ensure that
auditory privacy is maintained in all intake areas, that managers stress to staff that
sensitive patient information should not be discussed in public areas, and that
compliance be monitored.

Concur

Target date for completion: February 2, 2015

Facility response:

1. Construction for redesigning the Emergency Department is planned and will expand
the number of rooms. ED staff members were educated on how to maintain privacy in
limited spaces including the use of screens when the need for additional space is
required. This area will be monitored randomly for a minimum of 15 observations for
two quarters using the ‘secret shopper’ technique. The Associate Chief Nursing Service
(ACNS) of Integrated Clinical Services will report the results of the observation to the
Nursing Performance Improvement (PI) committee and Quality and Performance (QP).
The target is 100%.

2. We will verify that residents rotating at the VA have completed the HIPPA Privacy
Rules through Talent Management System (TMS). This will be completed monthly and
reported to Quality and Performance (QP). In addition, it will also be added to the
curriculum at the monthly medicine resident’s orientation for added emphasis.

3. Signage for acknowledging the patient’s privacy will be developed and posted in
rooms specifically reserved for Medical and Surgical Residents. The Administrative
Officer (AO) to Medicine Service will submit the requests and report completion to QP.

Recommendation 4. We recommended that processes be strengthened to ensure that
all designated eye clinic employees receive eye laser safety training with the frequency
required by local policy and that compliance be monitored.

Concur

Target date for completion: February 2, 2015

Facility response:

1. Surgical Service and the Medical Staff Coordinator will ensure new users have
computer and hands-on training prior to being approved to use the Laser. The
physicians will provide the Medical Staff Coordinator proof of Laser training as part of
the re-credentialing process every two years. Laser training compliance is monitored by
the Chief of Surgical Service and reported to the Clinical Exec Committee and QP for a
target of 100% compliance.

2. The medical center Laser safety policy will be revised to reflect the training
requirements.


VA OIG Office of Healthcare Inspections                                                            23
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


3. Physicians and OR staff that are involved with Laser procedures will take the training
this year to establish a known frequency. Computer based training will be assigned on
a two year cycle.

4. All OR staff members will take annual hands-on Laser competency training and
document training in the Talent Management System (TMS).

Recommendation 5. We recommended that processes be strengthened to ensure that
clinicians document patient/caregiver understanding of discharge instructions and that
compliance be monitored.

Concur

Target date for completion: February 2, 2015

Facility response: Clinical Nurse Manager (CNM), Associate Chief Nursing Service
(ACNS) for Medicine Service and QM Coordinator for Medicine Service will revise the
Outpatient Discharge Handoff Template to include the statement “the patient verbalized
understanding of discharge instruction “yes or no” and if no why and what is the
intervention. This is a forced field and must be completed. The medical records will be
audited for six months for a target of 100% and reported to the Nursing PI committee
and QP. D= # of medical records; N= # of records with understanding of education
documented.

Recommendation 6. We recommended that processes be strengthened to ensure that
clinicians complete and document National Institutes of Health stroke scales for each
stroke patient and that compliance be monitored.

Concur

Target date for completion: February 2, 2015

Facility response: In 2013, NIH Stroke Scale documentation was requested to be
completed by the ED providers and was not completed on all patients. The new
process is the Neurology attending physicians and/or resident are responsible for
completing the NIH documentation. The Chief of Neurology will monitor compliance
monthly for a target of 100% and report compliance to the Clinical Executive and Quality
Leadership Committees.

Recommendation 7. We recommended that processes be strengthened to ensure that
clinicians screen patients for difficulty swallowing prior to oral intake.

Concur

Target date for completion: February 2, 2015




VA OIG Office of Healthcare Inspections                                                            24
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


Facility response: Nursing swallow assessment protocol will integrate stroke dysphagia
screen and follow up. The Stroke team will:

1. Align stroke swallow screen protocol with medical center policy, Management of
Patients with Swallowing (Dysphagia) or Feeding Disorders (VHA Directive 2006-032)
and obtain administrative approval.

2. Revise and assign CPRS Dysphagia Screening template as required on nursing
admission for acute and LTC, consistent with new policy.

3. Develop and implement training program for all applicable nursing staff re: swallow
screen procedure and follow-up on admission and for other specified indications.

4. Assign and monitor monthly training completion in TMS over six months and report to
Quality and Performance and the Stroke Steering Committee. The Stroke Center
Director (also the Chief of Neurology) will monitor compliance with swallow screen for all
acute stroke admissions through monthly VISN 11 Data Warehouse report
(Stroke Steering Committee). The target is 100%.

Recommendation 8. We recommended that processes be strengthened to ensure that
clinicians provide printed stroke education to patients upon discharge and that
compliance be monitored.
Concur

Target date for completion: February 2, 2015

Facility response: Stroke education has been embedded into the Physician discharge
note. Physicians will be responsible for checking the stroke education button for every
stroke patient for review and understanding. When the discharge note is printed, the
stroke education is included. A random audit of 50% of acute stroke patients will be
completed monthly by the ACNS for Integrated Clinical Service (ICS) and Medicine
Service for 6 months. The target is 100%.

Recommendation 9. We recommended that processes be strengthened to ensure that
employees who are involved in assessing and treating stroke patients receive the
training required by the facility and that compliance be monitored.
Concur
Target date for completion: February 2, 2015

Facility response: The Stroke Center Director will ensure Integrated Clinical Services
providers complete required training and document in TMS. Training will be required
every two years. The Stroke Center Director will monitor compliance quarterly,
including training for new staff members and, report to the Clinical Executive and
Quality Leadership Committees. The target is 100%.




VA OIG Office of Healthcare Inspections                                                            25
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


Recommendation 10. We recommended that processes be strengthened to ensure
that staff complete and document restorative nursing services according to clinician
orders and/or residents’ care plans and that compliance be monitored.

Concur
Target date for completion: February 2, 2015

Facility response: The Restorative Coordinator will develop a weekly documentation
note that addresses restorative orders per clinician orders and/or resident care plan,
revise audit tool to capture restorative requirements and educate staff on revised weekly
note. The Restorative Coordinator will document training in Talent Management
System (TMS). The Community Living Center (CLC), Clinical Nurse Managers (CNMs)
will monitor and compliance weekly and report compliance monthly to Nursing
Performance Improvement (PI) committee and Quality and Performance (QP).
Target – 100% compliance.

Recommendation 11. We recommended that processes be strengthened to ensure
that staff modify restorative nursing interventions as needed and document the
modifications and that compliance be monitored.

Concur
Target date for completion: February 2, 2015

Facility response: The weekly note will include resident progress towards goals or
consult to Restorative Coordinator if compliance is not met or if modifications to the plan
need to be addressed. The CLC CNMs will complete a weekly audit of documentation
in the weekly note and report compliance monthly to Nursing PI committee and QP.
Target – 100% compliance.

Recommendation 12. We recommended that processes be strengthened to ensure
that staff document the reasons for not providing restorative nursing services when
those services are care planned and that compliance be monitored.

Concur
Target date for completion: February 2, 2015

Facility response: The Restorative Coordinator will reinforce education on
documentation requirements of daily restorative services. The CNMs will monitor
documentation weekly and report compliance monthly to Nursing PI committee and QP.
Target – 100% compliance.




VA OIG Office of Healthcare Inspections                                                            26
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


Recommendation 13. We recommended that processes be strengthened to ensure
that hand-off communication occurs between Physical Medicine and Rehabilitation
Service and the community living center when residents are discharged from therapy to
ensure that restorative nursing services occur.
Concur
Target date for completion: February 2, 2015

Facility response: The Chief of PM&R and ACNS for Geriatrics will ensure hand-off
communication occurs between PM&R and CLC when residents are discharged.
PM&R Chief will review Restorative Template to ensure all restorative programs are
listed and that staff members use the Restorative Consult as a means of Hand-Off.
100% of residents discharged from PM&R will have a Restorative Consult.
Recommendation 14. We recommended that processes be strengthened to ensure
that employees who perform restorative nursing services receive training on range of
motion and resident transfers.

Concur
Target date for completion: February 2, 2015

Facility response: The Restorative Coordinator will ensure that all training activities
provided to staff are addressed in the training module and documented including range
of motion and resident transfers. The CNMs will monitor training and report compliance
monthly to Nursing PI committee and QP for six months. Target – 100% staff training.

Recommendation 15. We recommended that processes be strengthened to ensure
that staff document residents’ restorative progress weekly and that compliance be
monitored.

Concur
Target date for completion: February 2, 2015

Facility response: The CLC CNMs will observe for compliance to staff documentation on
restorative progress during daily GEMBA walks (the process of walking around the work
area to identify improvement opportunities and wasteful activities). The Restorative
Coordinator will perform bi-monthly audits of documentation requirements. CNMs will
monitor compliance and report monthly to Nursing PI committee and QP for six months.
Target – 100% staff training.

Recommendation 16. We recommended that processes be strengthened to ensure
that initial patient safety screenings are conducted and that compliance be monitored.

Concur
Target date for completion: February 2, 2015


VA OIG Office of Healthcare Inspections                                                            27
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


Facility response: Providers will be instructed via email and staff meeting to order MRI
exams using the MRI Procedure tab which has the pre-screening form attached to the
order. Radiology will monitor and report compliance to the appropriate Service/Section
Chiefs. Compliance will be monitored for six months by the Chief Technologist. Results
of the monitor will be reported by the Chief Technologist at the monthly staff meeting
and to QP. The target is 100%.

Recommendation 17. We recommended that processes be strengthened to ensure
that radiologists and/or Level 2 magnetic resonance imaging personnel document
resolution in patients’ electronic health records of all identified magnetic resonance
imaging contraindications prior to the scan and that compliance be monitored.

Concur
Target date for completion: February 2, 2015

Facility response: Revise the second screening form that is completed by the patient on
the day of the procedure, to include comment/assessment for contraindications to
MRI’s. Screening form will be scanned into CPRS and linked to the MRI order.
Radiology note will be placed in CPRS to document contraindications.              Chief
Technologist and or designated radiologist will monitor compliance for six months and
report results at the monthly staff meeting and to QP. The target is 100%.

Recommendation 18. We recommended that processes be strengthened to ensure
that all designated Level 1 ancillary staff and Level 2 magnetic resonance imaging
personnel receive annual level-specific magnetic resonance imaging safety training and
that compliance be monitored.

Concur
Target date for completion: February 2, 2015

Facility response:

1. Chief, Education and Information and the Chief Technologist identified Level 2 MRI
safety training; however, the request was blocked due to access being denied by the
website. We have submitted Form VA0882 on 8-12-14 to the VA Network Security
Operations Center (VA-NSOC) to unblock this course. We are currently reviewing other
suitable training that can be assigned to the appropriate staff if the first choice is denied.
The Chief Technologist will assign annual training to the Radiology staff, monitor
compliance in TMS and report results at the monthly staff meeting and to QP. The
target is 100%.

2. The ACNS for Integrated Clinical Services will assign training to the appropriate
nursing staff for Levels 1 and 2 training (Level 2 training for nursing staff assigned to
Radiology), monitor in TMS for annual training and report compliance in Nursing PI
committee and to QP.



VA OIG Office of Healthcare Inspections                                                            28
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI


Recommendation 19. We recommended that processes be strengthened to ensure
that two-way communication devices are regularly tested and that compliance be
monitored.

Concur
Target date for completion: February 2, 2015

Facility response: On 7-22-14, the Chief Technologist updated the daily QA log record
to include documentation of daily testing of the communication device on the GE
scanner. The QA log record will be initiated for the Phillips scanner. All MRI
technologists were notified to document testing. Compliance monitoring will be done by
the Chief Technologist, reported at the monthly staff meeting and to QP. The target
is 100%.




VA OIG Office of Healthcare Inspections                                                            29
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI
                                                                                        Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Wachita Haywood, RN, Team Leader
Contributors            Debra Boyd-Seale, RN, PhD
                        Alicia Castillo-Flores, MBA, MPH
                        Sheila Cooley, GNP, MSN
                        Judy Montano, MS
                        Gavin McClaren, Resident Agent in Charge, Office of
                           Investigations
Other                   Judy Brown
Contributors            Elizabeth Bullock
                        Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Nathan McClafferty, MS
                        Patrick Smith, M. Stat
                        Laura Spottiswood, RN, MPH
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                            30
                                      CAP Review of the John D. Dingell VA Medical Center, Detroit, MI
                                                                                        Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Veterans In Partnership (10N11)
Director, John D. Dingell VA Medical Center (553/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Carl Levin, Debbie Stabenow
House of Representatives: Kerry Bentivolio; John Conyers, Jr.; John Dingell;
Sander Levin; Candice Miller; Gary Peters; Mike Rogers


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                            31
                                          CAP Review of the John D. Dingell VA Medical Center, Detroit, MI
                                                                                            Appendix G

                                                Endnotes

a
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009. 

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011. 

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010. 

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010. 

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation 

   Beds, March 4, 2010.
 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 VHA Directive 6300, Records Management, July 10, 2012.
 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
  References used for this topic included:
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
   Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
   American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
   and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
  References used for this topic included:

 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.

 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006. 

 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.

 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012. 

 Manufacturer’s instructions for Cipro® and Levaquin®.

 Various requirements of The Joint Commission.

d
  References used for this topic included:

 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements, 

   July 29, 2009.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
  The references used for this topic were:
 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
   January 31, 2013.
f
  References used for this topic included:
 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                        32
                                               CAP Review of the John D. Dingell VA Medical Center, Detroit, MI



g
    References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
    Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
    February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
    http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.




VA OIG Office of Healthcare Inspections                                                                          33
